IN THE SUPREME COURT OF THE UNITED STATES

BERNHOLZ, RICHARD
Petitioner
vs.

No:

20-0215

INTERNAL REVENUE SERVICE
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
September 23, 2020
cc:
PAUL S. VOLK
BLOUDGETT, WATTS & VOLK
72 HUNGERFORD TERRACE, BOX 8
BURLINGTON, VT 05402
MICHAEL BRADLEY CLAPP
121 MUNGER STREET
MIDDLEBURY, VT 05753

